No. ________________

IN THE SUPREME COURT OF THE UNITED STATES
DEVONTE JAISHUN TUCKER,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I certify that on this 25th day of June, 2021, in accordance with Supreme
Court Rule 29, copies of the Petition for Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis were delivered to Federal Express, a third-party
commercial carrier, for delivery to the Clerk within 3 calendar days.
On the same day, a copy was emailed to SupremeCtBriefs@usdoj.gov and
delivered to Federal Express for delivery to the Office of the Solicitor General of the
United States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001; telephone 202-514-2203.
I certify that all parties required to be served have been served.
Respectfully Submitted,
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
ALLISON CASE
Assistant Federal Public Defender
ALEXANDRIA DARBY
Appellate Attorney
Counsel of Record
200 Clinton Avenue West
Suite 503
Huntsville, Alabama 35801
256-684-8700
Alex_Darby@fd.org

